APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Memorandum Opinion of the United States
Court of Appeals for the Ninth Circuit
(December 12, 2019)

la

Order of the United States District Court for the
Central District of California Granting Motion
for Final Approval and Motion for Attorneys'
Fees and Service Awards (April 6, 2018)
7a
REHEARING ORDER
Order of the United States Court of Appeals
for the Ninth Circuit Denying
Petition for Rehearing
(February 7, 2020)

64a

JUDICIAL RULE
Federal Rules of Civil Procedure 23(a), (g)

66a

App. la
MEMORANDUM* OPINION OF THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
(DECEMBER 12, 2019)
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ROBERT RADCLIFFE; CHESTER CARTER;
MARIA FALCON; CLIFTON C. SEALE III;
ARNOLD LOVELL, JR.,
Plain tiffs-Appellants,
v.
JOSE HERNANDEZ; ROBERT RANDALL;
BERTRAM ROBINSON; KATHRYN PIKE;
LEWIS MANN,
Plain tiffs-Appellees,
v.
EXPERIAN INFORMATION SOLUTIONS, INC.;
EQUIFAX INFORMATION SERVICES, LLC;
TRANS UNION LLC,
Defendants-Appellees.

* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

App.2a

No. 18-55606
D.C. No. 8:05-cv-01070-DOC-MLG
Appeal from the United States District Court
for the Central District of California
David 0. Carter, District Judge, Presiding
Before: FARRIS and McKEOWN, Circuit Judges,
and KENDALL,** District Judge.
Objecting Plaintiffs (Radcliffe, et al.) appeal the
district court's approval of a pre-certification class action
settlement between Settling Plaintiffs (Hernandez, et
al.) and Defendants (Experian, et al.). We review the
approval of a class-action settlement for abuse of
discretion. Rodriguez v. West Publ'g Corp., 563 F.3d
948, 963 (9th Cir. 2009). We will affirm unless the
district court applied an incorrect legal standard or
based its decision on unreasonable findings of fact.
Nachshin v. AOL, LLC, 663 F.3d 1034, 1038 (9th Cir.
2011). We hold that the district court did not abuse its
discretion in finding that the settlement as a whole
was "fair, reasonable, and adequate." Fed. R. Civ. P.
23(e)(2). While we affirm the settlement, we remand
to the district court for recalculation of the attorneys'
fee award to Settling Counsel.
The parties are familiar with the facts and claims
so we do not repeat them here. In Radcliffe v. Experian
Info. Solutions [Radcliffe II, 715 F.3d 1157 (9th Cir.
2013), a panel of this court held that class representatives and class counsel had conflicts of interest that

** The Honorable Virginia M. Kendall, United States District
Judge for the Northern District of Illinois, sitting by designation.

App.3a

prevented them from adequately representing the class.
Id. at 1163. This court reversed and remanded.
On remand after Radcliffe I, the district court reappointed Settling Counsel as class counsel and this
court affirmed. Radcliffe v. Hernandez [Radcliffe In,
818 F.3d 537 (9th Cir. 2016). On remand after Radcliffe
II, the Settling Parties negotiated a revised settlement.
In its order appointing them as class counsel, the district court specifically noted that Settling Counsel
would "accept the costs of re-notice." We quoted this
language in Radcliffe //when we affirmed the district
court's order. Our decision in Radcliffe II was thus explicitly predicated on the fact that Settling Counsel
would "accept the costs of re-notice." Id.
The district court devoted much attention to a
comparison between the two settlements and approved
the settlement in part because it found that the second
settlement brought greater net benefits to the class
than the first. But, the second settlement did not need
to be as good as the first, nor must it necessarily have
been approved if it was better. Rule 23(e)(2)'s flexible
standard is satisfied so long as the settlement is "fair,
reasonable, and adequate" on its own merits. Further,
we review the adequacy of a settlement based on the
"settlement as a whole, rather than the individual
component parts." Staton v. Boeing Co., 327 F.3d 938,
960 (9th Cir. 2003) (quotation omitted); see also Rodriguez, 563 F.3d at 960-61 (concluding that conditional
incentive agreements created a conflict of interest,
but affirming approval of the settlement).
We are satisfied that the district court did not
abuse its discretion in approving the settlement.
The district court duly analyzed each of the factors
considered in Staton and deemed the settlement sub-

App.4a

stantively adequate. See Staton, 327 F.3d 959 (listing
factors relevant to adequacy of class action settlement).
Objecting Plaintiffs' optimistic valuation of Defendants'
potential liabilities was undercut by substantial litigation risks, which drastically reduced the expected
value of the class's claims. The parties sharpened their
valuations of the case over 14 years of contested litigation, not to mention four trips to this court on appeal.
They settled on terms mutually agreeable to the parties
involved (except, of course, Objecting Plaintiffs).
The district judge—who knew more about the
parties' litigating positions than anybody and, notably,
had insight into future rulings on class certification
and other issues that would be reviewable only on a
deferential standard of review—deemed the settlement
adequate. See Hanlon v. Chrysler Corp., 150 F.3d 1011,
1026 (9th Cir. 1998) (noting that approval of a settlement is "committed to the sound discretion of the trial
judge because he is 'exposed to the litigants, and their
strategies, positions and proor) (quoting Officers for
Justice v. Civil Serv. Comm n, 688 F.2d 615, 626 (9th
Cir. 1982)). Even if the district court overvalued the
worth of the non-monetary benefits, the settlement was
adequate.
Likewise, we reject Objecting Plaintiffs' assertion
that the settlement fails to "tread] class members
equitably relative to each other." Fed. R. Civ. P. 23(e)(2)
(D). Rule 23's flexible standard allows for the unequal
distribution of settlement funds so long as the distribution formula takes account of legitimate considerations and the settlement remains "fair, reasonable, and
adequate." Fed. R. Civ. P. 23(e)(2). Settling Plaintiffs
sought to provide additional relief to plaintiffs who
alleged more concrete material harms than other class

App.5a

members. Nothing in Rule 23—and no precedent cited
by Objecting Plaintiffs—prohibits parties from tying
distribution of settlement funds to actual harm.
Objecting Plaintiffs' final contention is that Settling Counsel created a conflict of interest by opting to
"repay" its debt to the class in new benefits rather
than deducting the costs of re-notice from the fee
award. As is, this contention is less easily dismissed. At
the very least, the structure of the attorneys' fee award
in this case created the possibility of a conflict of
interest with the class.
That said, multiple factors counsel restraint. Most
importantly, given that Rule 23's flexible standard
governs this dispute, we conclude that the settlement
is fair and that Settling Counsel ably represented the
class. In Rodriguez, we approved a class action settlement even though we held that class counsel and five
of the seven class representatives had a conflict of
interest. 563 F.3d at 961 (holding that settlement was
substantively fair and reasonable to the class). The
Rodriguez factors are present here.
There is a further factor here that weighs in favor
of approving the settlement. This long-standing dispute has cost the parties a great deal already. Further
time spent litigating will serve only to devour more
and more of the settlement fund, which would be
better spent providing relief to injured parties. Settling
Plaintiffs and Defendants have achieved a mutually
agreeable solution, though not without each side feeling
the predictable pains of negotiation. We are satisfied
that the settlement provides adequate relief to the
class.

App.6a

In light of our decision in Radcliffe II, however,
we remand for reconsideration of the attorneys' fee
award. Settling Counsel were duty-bound to reimburse
the class for the waste of settlement funds caused by
the ethical conflict in Radcliffe I We recognize that
the district court's fee calculation appears to have
taken into account Settling Counsel's "debt" to the
class in other ways, such that it may be unwarranted
for the district court to simply subtract the $6 million
estimated cost of re-notice from the $8,262,848 fee
award currently in place. We leave specific calculations
up to the discretion of the district court, but specifically
note Radcliffe II's insistence that Settling Counsel
pay the full cost of re-notice.
We affirm the district court's approval of the
settlement. We reverse and remand the award of
attorneys' fees to class counsel for recalculation of the
fee award in line with this court's opinion in Radcliffe
AFFIRMED IN PART;
REVERSED AND REMANDED IN PART.
Each party shall bear its own costs on appeal.

App.7a
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE CENTRAL DISTRICT
OF CALIFORNIA GRANTING MOTION
FOR FINAL APPROVAL AND MOTION FOR
ATTORNEYS' FEES AND SERVICE AWARDS
(APRIL 6, 2018)
IN THE UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA
SOUTHERN DIVISION
TERRI N. WHITE, .ET AL.,
Plaintiffs,
v.
EXPERIAN INFORMATION SOLUTIONS, INC.,
Defendant.
and
related cases:
05-cv-0173-DOC (MLGx)
05-cv-7821-DOC (MLGx)
05-cv-0392-DOC (MLGx)
05-cv-1172-DOC (MLGx)
05-cv-5060-DOC (MLGx)
Case No. 8:05-cv-01070
Before: David 0. CARTER,
United States District Judge.

App.8a

Plaintiffs Jose Hernandez, Kathryn Pike, Robert
Randall, Bertram Robinson, and Lewis Mann (Plaintiffs")
move this Court for an order granting final approval
of the class action settlement ("Settlement") reached
in the above-captioned case ("Motion for Final Approval")
and for Attorneys' Fees, Expenses, and Service Awards
("Motion for Attorneys' Fees"). After considering all
relevant written submissions and oral argument, and
for the reasons set forth below, the Court GRANTS
the Motion for Final Approval and Motion for Attorneys'
Fees.
I.

Factual and Procedural Background
A. Factual History

Plaintiffs' claims center on Defendants' failure to
maintain reasonable procedures to assure the accurate
reporting of debts that have been discharged in
bankruptcy because they relied primarily on creditors
and public record vendors to report the discharged
status of debts and judgments. Plaintiffs assert claims
for (i) willful and/or negligent violation of Section 1681e
(b) of the Fair Credit Reporting Act, 15 U.S.C. § 1681
("FCRA"), and its California counterpart, Cal. Civ.
Code § 1784.14(b), for failure to maintain reasonable
procedures to assure maximum possible accuracy; (ii)
willful and/or negligent violation of Section 1681i of
the FCRA and its California counterpart, Cal. Civ. Code
§ 1785.16, for failure to reasonably investigate consumer disputes regarding the status of the discharged
accounts; and (iii) violation of California's Unfair
Competition law, Cal. Bus. & Prof. Code § 17200.
This litigation dates back to 2005, when Jose
Hernandez filed his original Class Action Complaint

App.9a

in Hernandez V. Equifax Info. Services, LLC, et al.,
No. 05-cv-03996 (N.D. Cal.), which was later transferred
to this District and consolidated with White v. Equifax
Info. Servs., LLC, 05-cv-7821 DOC (MLGx) and Pike
v. Equifax Info. Servs. LLC, 06-cv-5600 DOC (MLGx).
(Hernandez Dkt. No. 33; Acosta Dkt. No. 152.) During
the course of this litigation, Plaintiffs undertook substantial discovery, including taking or defending forty
depositions, producing over 50,000 pages of documents,
and reviewing over 40,000 pages of documents produced by the Defendants. Plaintiffs also consulted with
and retained numerous credit reporting and consumer bankruptcy experts, interviewed numerous consumers, and reviewed thousands of consumer credit
reports.
From August 15, 2007, to February 2009, the
parties engaged in arm's-length, contentious, lengthy,
and complicated negotiations (with the participation of
Defendants' insurance carriers), including seven inperson sessions with a JAMS mediator, the Hon.
Lourdes Baird (Ret.), and five in-person mediation sessions with mediator Randall Wulff, as well as several
additional in-person or telephonic sessions involving
counsel for the parties. These efforts resulted in the
April 2008 Injunctive Relief Settlement Agreement,
which this Court approved. (Dkt. 290.) The parties
then resumed with several mediation sessions to
continue working toward a settlement of the Class's
monetary relief claims, but without success. On
January 26, 2009, the parties appeared for a hearing
on Plaintiffs' Motion for Class Certification of a
23(b)(3) damages class. Prior to the hearing, the Court
issued a tentative ruling denying Plaintiffs' Motion
for Class Certification pursuant to Fed. R. Civ. P. 23

App.10a

(b)(3), decided not to hear the Motion at that time,
and directed the parties to make a final attempt to
settle the litigation.
The parties and Defendants' insurance carriers
participated in an additional mediation session before
mediator Wulff three days later but did not reach an
agreement. The parties and Defendants' insurance
carriers then participated in a settlement conference
at the Court on February 5, 2009. At that conference,
Plaintiffs, Equifax, and Experian reached agreement
on the principal terms of a settlement (the "2009
Proposed Settlement"), which would have resolved
of all Plaintiffs' claims in the Litigation for monetary
damages, including statutory and punitive damages.
(Dkt. 383.) TransUnion agreed to join that settlement
on February 18, 2009.
After the Court granted preliminary approval,
(Dkt. 423), notice was given to the Class. Plaintiffs
then moved for final approval, (Dkt. 604), which this
Court granted after concluding the settlement was
fair and reasonable and after giving due consideration
to all objections received. (Dkt. 837.) Plaintiffs/ Objectors Robert Radcliffe, Chester Carter, Maria Falcon,
Clifton C. Seale, III, and Arnold E. Lovell (the "White
Objectors") appealed to the Ninth Circuit, which found
that the Settlement's service award provision created
an impermissible conflict. Radcliffe v. Experian Info.
Solutions, Inc., 715 F.3d 1157 (9th Cir. 2013). ("Radcliffe I"). In response to this ruling, Class Counsel
have agreed not to seek any fees or expenses for the
period of conflict identified by the Ninth Circuit, April
1, 2009, through May 1, 2013.
On remand in 2013, Class Counsel put in place
multiple additional safeguards to ensure that the

App.11a

Class's best interests were protected, including the
presence of newly associated counsel, Public Justice,
P.C. and Francis & Mailman, who, in addition to
being unconnected to the prior conflict, bring considerable additional class action experience and FCRA
expertise to the table. Class Counsel entered into a
cooperating counsel agreement, vetted by Professor
Charles Silver, to ensure that newly associated counsel
are incentivized to achieve the best result for the Class.
On May 1, 2014, this Court appointed Class Counsel
to represent the Class under Fed. R. Civ. P. 23(g).
(Dkt. 956.) Class Counsel were required to defend their
appointment through a lengthy appeal to the Ninth
Circuit, including a petition for certiorari to the United
States Supreme Court.
After the Ninth Circuit's March 2016 ruling in
Radcliffe v. Hernandez, 818 F.3d 537 (9th Cir. 2016)
("Radcliffe II") and remand to this Court, the Parties
resumed settlement negotiations and attended a
mediation with the Hon. Daniel Weinstein (Ret.) on
August 25, 2016, but did not reach agreement. On
September 19, 2016, Plaintiffs moved for leave to file
a Third Amended Complaint to add two additional
Class Representatives and two subclasses. (Dkt. 1005.)
On October 11, 2016, this Court tentatively denied
Plaintiffs' motion and ordered the parties to appear for
a settlement conference before the Hon. Dickran M.
Tevrizian. (Dkt. 1021.) The parties reached an agreement and signed a term sheet on November 7, 2016.
Over the next few months, the parties worked to
document the detailed settlement language. The final
Settlement Agreement was executed on April 14, 2017.

App.12a

B. Key Terms of the Settlement
1. The Settlement Class
The "23(b)(3) Settlement Class"1 that will benefit
from this Settlement is co-extensive with the Settlement
Class under the 2009 Proposed Settlement. It includes
all consumers who have received an order of discharge
pursuant to Chapter 7 of the United States Bankruptcy
Code and who, at any time between and including
March 15, 2002 and May 11, 2009 (or, for California
residents in the case of Trans Union, any time between
and including May 12, 2001 and May 11, 2009), have
been the subject of a Post-bankruptcy Credit Report
issued by a Defendant in which one or more of the following appeared:
A Pre-bankruptcy Civil Judgment that was
reported as outstanding (le. it was not
reported as vacated, satisfied, paid, settled
or discharged in bankruptcy) and without
information sufficient to establish that it
was, in fact, excluded from the bankruptcy
discharge;
A Pre-bankruptcy Installment or Mortgage
loan that was reported as delinquent or with
a derogatory notation (other than "discharged
in bankruptcy," "included in bankruptcy," or
similar description) and without information sufficient to establish that it was, in
fact, excluded from the bankruptcy discharge;
and/or

1 Capitalized terms herein have the meanings defined in the Settlement Agreement.

App.13a

A Pre-bankruptcy Revolving Account that was
reported as delinquent or with a derogatory
notation (other than "discharged in bankruptcy," "included in bankruptcy" or similar
description) and without information sufficient to establish that it was, in fact, excluded
from the bankruptcy discharge; and/or
A Pre-bankruptcy Collection Account that
remained in collection after the bankruptcy
date.
Under the 2009 Proposed Settlement, Defendants
identified Class members using commercially reasonable procedures to search a selection of their archived
files. Defendants have now updated that list and
provided the Settlement Administrator with the last
known mailing address associated with Class members. The Settlement Administrator has de-duplicated
and updated the Class list to identify 15,335,681
Settlement Class members.
2. Settlement Benefits
The Settlement provides both significant monetary
and important, new nonmonetary benefits. In terms
of monetary benefits, the Settlement creates a nonreversionary fund consisting of approximately $37.7
million2 remaining in the registry of the Court after
payment of notice and administration expenses was
made in connection with the 2009 Proposed Settlement
and an additional $1 million contributed by the Defendants, for a total of approximately $38.7 million in non2 This total includes $37,350,666.18 in principal remaining in
the fund as of December 31, 2016, plus more than $300,000 in
accrued interest.

App.14a

reversionary cash benefits. (Settlement Agreement
§ 1.66.) Class members may claim either an Actual
Damage Award, a Convenience Award, or a package
on Non-Monetary Benefits. (Id. § 7.2.) Importantly, all
approved claims submitted in connection with the 2009
Proposed Settlement will be automatically honored
in this Settlement without further submissions. (Id.
§ 7.1(a).) Actual Damage Awards are reserved for
Class members who can demonstrate that a credit
inquiry was performed between March 15, 2002 and
May 11, 2009 (or, for California residents in the case
of TransUnion, any time between and including May
12, 2001 and May 11, 2009), related to the denial
of employment, a mortgage or housing rental, or a
credit card, auto loan, or other credit applied for, or
requiring payment of a discharged debt to obtain credit.
(Settlement Agreement, Schedule 6.2.) Actual Damage
Awards Claimants will receive $750 for denial of
employment, $500 for denial of a mortgage or housing
rental, or $150 for denial of other credit. (Id)
If Class members cannot meet the proof requirements for an Actual Damage Award, they may claim
a Convenience Award, with no requirement of attestation. (Settlement Agreement § 1.14; Dkt. 1066-7 at 3.)
Convenience Award Claimants will receive a pro rata
share of Convenience Award Funds remaining after
payment of notice and administration costs, service
awards, if any, any award of attorneys' fees and
costs, and estimated amounts to be paid for Actual
Damage Awards. (Id. §§ 1.4, 7.2.) The amounts of any
checks, including both Actual Damage and Convenience
Award checks, that remain uncashed more than 120
days after the date on the check will be redistributed
on a pro rata basis to Convenience Award Claimants

App.15a

who cashed their first check, so long as the redistribution would not result in too low an amount to be
economically feasible. (Id. § 7.2(c).)
The Settlement gives Class members the option
of claiming, as an alternative to a monetary damage
award, an extra free copy of their credit reports
(beyond the free annual FACTA disclosure) and two
free VantageScore Credit Scores. This benefit is tailored
to be of particular assistance to persons who, like the
Class members here, have been through bankruptcy
and may be seeking to improve their credit scores.
In addition, all Class members, regardless of which
benefit they choose to claim, can access the Settlement Website to receive information about Defendants'
consumer relations and investigation processes to
dispute any erroneous information on their credit
reports. (Settlement Agreement § 3.2, Schedule 3.2
(A).) This includes an offer of free legal assistance
from Class Counsel with extensive expertise handling
consumer credit issues. A link to the "Consumer Credit
Reporting Assistance" webpage was featured in the
Settlement Notice, and as of November 24, 2017, this
section of the website had already received 93,639
unique visits, and 71 Class members have requested
assistance from Class Counsel. Class members who
visited this section received information about (a)
how to obtain free file disclosures; (b) how to read and
understand credit reports; (c) the difference between
a credit report and a credit score; (d) how to use
settlement benefits to track credit ratings and monitor
improvements; and (g) how to dispute inaccuracies in
credit reports and make the most of Defendants'
reinvestigation processes, as well as links to publications and advice from the Consumer Financial Protec-

App.16a

tion Bureau and the National Consumer Law Center.
(Settlement Agreement § 3.2, Schedule 3.2(A).)
3. Notice and Claims Administration
Distributions from the Settlement Fund will be
made to Class members who submitted valid claims
by the November 13, 2017 deadline. The Settlement
Administrator will first distribute the guaranteed
amounts—$750 for denial of employment, $500 for
denial of a mortgage or housing rental, or $150 for
denial of other credit or payment of a discharged
debt to obtain credit—to approved Actual Damage
Claimants, paying each claimant the highest award
for which he or she is eligible. (Settlement Agreement
§ 7.2(b).) After deduction of administrative and notice
costs and amounts paid pursuant to any award of
attorneys' fees and costs, the remaining amount will
be available for pro rata distribution to the Convenience
Award claimants. (Id. § 7.2(a).)
II. Legal Standard
Federal Rule of Civil Procedure 23(e) requires
court approval of class action settlements, as well as
notice of settlement to all class members. In deciding
whether to grant approval, district courts must evaluate
"whether a proposed settlement is fundamentally
fair, adequate, and reasonable." Staton v. Boeing Co.,
327 F.3d 938, 952 (9th Cir. 2003). To determine if a
settlement is fair, some or all of the following factors
should be considered: (1) the strength of Plaintiffs'
case; (2) the risk, expense, complexity, and duration
of further litigation; (3) the risk of maintaining class
certification; (4) the amount of settlement; (5) the
amount of investigation and discovery that preceded

App.17a

the settlement; (6) the experience and views of counsel;
and (7) the reaction of class members to the proposed
settlement. See, e.g., Hanlon v. Chrysler Corp., 150
F.3d 1011, 1027 (9th Cir. 1998); Staton, 327 F.3d at
959. The relative degree of importance attached to any
particular factor depends on the nature of the claims
advanced, the types of relief sought, and the unique
facts and circumstances of each case. Officers for
Justice v. Civil Service Comm 'n of City and County of
San Francisco, 688 F.2d 615, 625 (9th Cir. 1982). The
ultimate decision to approve a class action settlement
rests in the district court's sound discretion. Class
Plaintiffs v. City of Seattle, 955 F.2d 1268, 1276 (9th
Cir. 1992).
III. Discussion
A. Class Certification for the Purposes of
Settlement
Where, as here, "the parties reach a settlement
agreement prior to class certification, courts must
peruse the proposed compromise to ratify both the
propriety of the certification and the fairness of the
settlement." Staton, 327 F.3d at 952. The first step in
such cases is to assess whether a class exists. Id.
(citing Amchem Prods. Inc. v. Windsor, 521 U.S. 591,
620 (1997)). In its Preliminary Approval Order, (Dkt.
1067), the Court discussed the propriety of conditional
class certification for the purposes of settlement. The
Court sees no reason to depart from its previous conclusions regarding the existence of a proper settlement
class. In lieu of rehashing this analysis, the Court
incorporates its class certification findings from the
Preliminary Approval Order into the instant Order.

App.18a

B. Settlement Approval
The Court turns next turns to the propriety of
the Settlement. The relevant factors weigh in favor of
granting the Motion for Final Approval and indicate
that, on the whole, the Settlement is fair, reasonable,
and adequate to the class.
1. Strength of Plaintiffs' Case and the Risk,
Expense, and Complexity and Duration
of Further Litigation
Unlike protracted litigation with an uncertain
outcome, the Settlement provides Class members with
prompt and efficient relief, enabling them to avoid
the risks of going to trial. The factual and legal issues
in this action are complex, and the trial of Plaintiffs'
claims under the FCRA and related state laws would
require substantial preparation and ultimately the
presentation of dozens of witnesses and numerous
experts. The Defendants deny that they willfully or
negligently violated the FCRA or related state laws
and contend that they did not report "inaccurate
information" within the meaning of 15 U.S.C. § 1681e
(b). See Biggs v. Experian Info. Sols., Inc., 209 F. Supp.
3d 1142, 1145 (N.D. Cal. 2016 ("The FCRA does not
prohibit the accurate reporting of debts that were delinquent during the pendency of a bankruptcy action,
even after those debts have been discharged, so long
as the bankruptcy discharge is also reported if and
when it occurs."); In re Flint, 557 B.R. 461, 466 (N.D.
W. Va. 2016) (holding that "although a debtor's debt
may be personally discharged in bankruptcy, the underlying debt is not extinguished") (citing U.S. v. Alfano,
34 F. Supp. 2d 827, 841 (E.D.N.Y. 1999)). The Court
does not here decide the validity of this defense, but

App.19a

notes that Defendants' arguments merit serious consideration and that, in light of them, the outcome of
a trial is uncertain.
If this case were to proceed, Plaintiffs would also
be required to prove that Defendants acted willfully in
violating the FCRA. 15 U.S.C. § 1681n(a). Defendants
have argued that, even if their interpretation of the
law was incorrect, it was not "objectively unreasonable"
in light of the statutory text and relevant court and
regulatory guidance. See Safeco Ins. Co. v. Burr, 551
U.S. 47, 59-60 (2007); see also Banga v. First USA, NA,
29 F. Supp. 3d 1270, 1278 (N.D. Cal. 2014) (plaintiff
must prove that the defendant's interpretation of the
FCRA is "objectively unreasonable"). Because this is
a complex legal and factual issue raising matters of
first impression, including whether the FCRA requires
a CRA to cross-check information they receive from
creditors with public records of bankruptcy discharges,
proving willfulness would present a significant challenge.3 Furthermore, even if the Class were successful in winning at trial, proceeding to trial would add

3 Defendants have also argued that Class members did not suffer
"concrete" injuries sufficient for standing within the meaning of
Article III under the U.S. Supreme Court's recent decision in
Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547-48 (2016). The Court
finds that the Named Plaintiffs have standing, because, inter alia,
they have alleged and offered evidence that their credit ratings were
adversely affected and that they were denied credit opportunities,
or received less advantageous rates for the credit opportunities
they did receive, as a result of Defendants' inaccurate reporting.
(See Dkt. 49 ¶¶ 25-36, Dkt. 941 ¶ 6.) There is nevertheless a
risk that issues regarding standing could raise additional manageability concerns, which further supports the reasonableness of
settlement.

App.20a

years to the resolution of this case and could be
further delayed by appeals.
Risk of Maintaining Class Certification
Were this case to proceed, the Class also faces a
significant risk that the Class might not be certified,
or that class certification might not be maintained
through trial. At the hearing on class certification on
January 26, 2009, the Court issued a tentative opinion
denying Plaintiffs' Motion for Class Certification.
(Dkt. 369.) The Court notes that in the intervening 8
years since that ruling, the climate for class actions
has generally become less favorable. Trial of this case
as a class action would pose significant manageability
issues which, while they do not prevent certification
for settlement purposes, could be a real threat to the
Class receiving any recovery if these claims had to be
tried to a jury. The very real risk that a class might
not be certified or that class certification might not
be maintained through trial therefore strongly supports
Settlement approval.
Amount of Settlement
This Settlement provides relief for all Class
members who have had a credit report issued by a
Defendant that contained alleged errors regarding
debts discharged in bankruptcy. The Settlement benefits have been revised since the 2009 Proposed Settlement in important ways, tailoring the relief to the Class
and making this Settlement a significant improvement
for the Class. The Class will benefit from approximately $38.7 million in non-reversionary monetary
benefits as well as significant non-monetary benefits.
Just in strictly monetary terms, this remains the

App.21a

second-largest settlement in FCRA history, which in
itself weighs strongly in favor of approval of this
Settlement, particularly in light of the FCRA's goal
of awarding statutory damages to deter offenders from
improperly reporting consumers' credit history. See
Holloway v. Full Spectrum Lending, 2007 U.S. Dist.
LEXIS 59934, at *15 (C.D. Cal. June 26, 2007) ("the
determination of statutory damages, which range
from $100 to $1,000 per violation, need not be determined on an individual basis, but rather can be
determined based upon Defendant's conduct in the
aggregate"). Given the FCRA's goal of deterring offenders from improperly reporting credit, the detriment
that the Settlement imposes on Defendants ought to
be considered alongside the benefit that the Settlement confers on the class members.
The addition of the non-monetary relief and adjustments made to improve the claims process, tailor the
relief to the Class, and deliver benefits to over 200,000
more Class members make this Settlement better
than the 2009 Proposed Settlement, which was itself
fair, reasonable, and adequate. The benefits to be
delivered include 3,340 new verified Actual Damage
Award claims-22% more than under the 2009 Proposed Settlement—for a total of 18,669 Actual Damage
Awards. (Dkt. 1105 11 28-29.) Despite the increase
in the number of claims, these claims will all be paid
at the full amount claimants would have received
under the 2009 Proposed Settlement: $750 for denial
of employment claims; $500 for denial of housing
claims; and $150 for denial of other credit claims. The
benefits to be delivered also include 163,397 new,
approved Convenience Award claims-22% more than
under the 2009 Proposed Settlement—for a total of

App.22a

917,404 approved Convenience Award Claims, which
will also be paid at levels comparable to what was
estimated under the 2009 Proposed Settlement. (Id.)
In addition, 53,064 Class members have claimed the
free file disclosure and credit scores, a new benefit not
available under the 2009 Proposed Settlement, which
can be utilized for two years after the Settlement's
Effective Date. (Id.) Overall, this Settlement will deliver
claimed benefits to 989,137 approved claimants (excluding the estimated 200,000 visits to the CCRA website),
which is 28.6% more claims than were approved under
the 2009 Proposed Settlement.
Regarding the non-monetary relief, the almost
100,000 Class members who have already visited the
CCRA section of the Settlement Website derived a
meaningful benefit, which the Court conservatively
values at $10.00 per Class member visit. Certainly
some Class members will derive a benefit from the
CCRA website far greater than this amount—which
comes at no cost to Class members and which will
remain available to Class members through the Settlement's Effective Date, but in any event at least through
December 13, 2019. 15,335,681 notices were sent to
Class members advising that all of them are entitled
to access the CCRA website at no charge. Leading
industry expert John Ulzheimer characterized the
CCRA website as containing "a wealth of important and
accurate information," (Dkt. 1111 ¶ 14), and observed
that it is "unique in its breadth and provenance. (Id.
¶ 17.) He also noted that the fact that "the CCRA
content has been vetted for accuracy by the three
[CRAB] ensures that consumers are getting accurate
information" and that the website enables Class
members "to obtain legal assistance to challenge the

App.23a

accuracy of [their] credit reports by leveraging the
experience of Class counsel." (Id. ¶¶ 15, 17.) The
CCRA website contains useful information for Class
members concerning credit reporting, credit scoring,
and consumer rights and, significantly, also allows
Class members to seek credit reporting assistance
directly from Class Counsel. Based on Class Counsel's
commitment at the Final Approval Hearing that this
website will remain active at least through the end of
2019, the Court estimates approximately another
100,000 or more Class members will benefit from it.
Class members were also given the opportunity
to choose, as an alternative to claiming a monetary
award, additional non-monetary relief consisting of a
free credit file disclosure and two free VantageScore
credit scores. As shown in Mr. Ulzheimer's Declaration,
"giving class members access to free scores is valuable
in that it allows them to see the same or similar
`grades' that their respective lenders will see when
performing the underwriting and risk assessment
process." (Dkt. 1111 ¶ 21.) The free file disclosure and
credit scores are provided to Class members without
strings, which Mr. Ulzheimer notes is "unique" in
today's environment. (Id. ¶ 22.) The Court finds that
the value of the package of a free credit disclosure
and two free credit scores, made available to all
Class members who did not claim monetary awards,
with no cap on the number of awards that may be
claimed, is $19.95. (Id. ¶ 25.) This value also aligns
with the roughly $20 Convenience Award that Class
members turned down to instead accept the nonmonetary relief, which suggests those Class members
valued the credit file disclosure and credit scores at an
amount greater than $20. All together, Class Counsel

App.24a

argue that the conservative value of the Non-Monetary
Relief, including both the CCRA website and NonMonetary the package of a free file disclosure and two
free credit scores, is $1 dollar per Class member on
average, or $15 million total. (Dkt. 1096 at 9.)
These substantial non-monetary benefits are
closely tied to the nature of the claims and alleged harm
in this litigation, as the Class members, having all
experienced a bankruptcy, are likely to benefit from
information regarding how to improve their credit
scores and the tools offered to help them achieve and
monitor such improvement. For some Class members
who chose to make use of the website information
and/or the free file disclosure and credit scores, these
non-monetary benefits will be far more valuable than
a Convenience Award. It is especially notable that
Class Counsel have achieved this improved Settlement
despite some intervening caselaw decisions favorable
to Defendants' positions and a generally less favorable climate for class actions, showing their skill and
persistence.
In addition, it is notable that this Settlement
eliminates any requirement that Class members
attest to knowledge of an error in their credit reports
in order to claim a Convenience Award or NonMonetary benefit, eliminating any possible chilling
effect such a requirement might have had. The new
notice and claims process provided a significant benefit to the class, allowing over 200,000 more Class
members to claim relief. The notice and claims review
was conducted efficiently at a cost of approximately
$6 million (including future estimated costs for completing the administration and delivering claimed benefits),
approximately $2.5 million less than the projected total

App.25a

notice and administration cost of the 2009 Proposed
Settlement,4 despite intervening increases in postage
rates and general inflation. In addition, the notice
and claims costs incurred in connection with the
2009 Proposed Settlement were extremely valuable.
They generated 754,007 Convenience Award claims,
15,329 Actual Damage Award claims, and 1,663 opt
outs. These claims and opt outs are being honored, and
the costs associated with processing and validating
them need not be repeated. Overall, this Settlement
is an excellent result for the Class, strongly supporting
Settlement approval.
4. Investigation and Discovery
In order to achieve this Settlement, Class Counsel
took substantial discovery, allowing a full development
of the factual issues in dispute. Prior to the 2009
Proposed Settlement, Class Counsel undertook substantial investigation, fact-gathering, and formal discovery
(including review of tens of thousands of pages of documents, retention and consultation of numerous experts
in the fields of credit reporting and consumer bankruptcies, interviews with numerous consumers, review of
thousands of consumer credit reports, and numerous
depositions), as well as significant motion practice and
other litigation. Plaintiffs took or defended forty depositions, produced over 50,000 pages of documents, and
reviewed over 40,000 pages of documents produced
4 About $7.65 million in notice and settlement administration costs
were expended in connection with the 2009 Proposed Settlement. ,
Had that settlement become final, it was estimated that up to an
additional $1 million would have been spent distributing the more
than 15,000 actual damage awards and the more than 750,000
convenience awards.

App.26a

by the Defendants. Class Counsel also retained several
experts who have filed numerous declarations with
the Court and engaged in extensive motion practice,
including briefing and arguing a motion for summary
judgment.
Further demonstrating that this Settlement is the
product of vigorous, well-informed advocacy, it was
achieved only after multiple intensive, arm's-length
negotiations before experienced mediators. See 4 Newberg § 11.43 (explaining that in approving settlements,
courts should consider the presence of good faith and
the absence of collusion on the part of settling parties).
Leading up to the 2009 Proposed Settlement, the
parties conducted extensive arms-length and contentious negotiations during the course of a lengthy and
complicated mediation with the Hon. Lourdes Baird
(Ret.) and with Randall Wulff. The parties participated
in seven full days of mediation with the participation
of Judge Baird, as well as numerous telephonic conferences with Judge Baird. The parties also participated
in five in-person mediation sessions with mediator
Randall Wulff, including a mandatory settlement conference at the Court on February 5, 2009.
And negotiations continued to be contentious after
this case was remanded from the Ninth Circuit. The
parties resumed settlement negotiations and attended
a mediation with the Hon. Daniel Weinstein (Ret.) on
August 25, 2016, but did not reach agreement. On
September 19, 2016, Plaintiffs moved for leave to file
a Third Amended Complaint to add two additional
Class Representatives and two narrower, more focused
subclasses. (Dkt. 1005.) On October 11, 2016, this Court
tentatively denied Plaintiffs' motion and ordered the
parties to appear for a settlement conference before

App.27a

the Hon. Dickran M. Tevrizian. (Dkt. 1021.) The parties
reached an agreement and signed a term sheet on
November 7, 2016. Over the next few months, the
parties worked to document the detailed settlement
language, finally executing the Settlement Agreement on April 14, 2017. The thorough investigation
and discovery and numerous arm's-length mediations
that informed this settlement support that it represents a fair and reasonable result for the Class. See
Ortiz v. Fibreboard Corp., 527 U.S. 815, 852 (1999)
(holding that "[o]ne may take a settlement amount
as good evidence of the maximum available if one can
assume that parties of equal knowledge and negotiating skill agreed upon the figure through arm'slength bargaining . . . ").
5. Experience and Views of Counsel
Class Counsel, which include highly experienced
consumer class action practitioners and the most wellknown and successful FCRA lawyers in the country,
strongly endorse this settlement as an excellent result
for the Class. "The recommendations of plaintiffs'
counsel should be given a presumption of reasonableness." Boyd v. Bechtel Corp., 485 F. Supp. 610, 622
(N.D. Cal. 1979); see also M Berenson Co. v. Faneuil
Hall Marketplace, Inc., 671 F. Supp. 819, 822 (D. Mass.
1987). Here, the fact that qualified and well-informed
counsel endorse the Settlement as fair, reasonable, and
adequate weighs heavily in favor of final approval. See
Ellis v. Naval Air Rework Facility, 87 F.R.D. 15, 18
(N.D. Cal. 1980) ("the fact that experienced counsel
involved in the case approved the settlement after hardfought negotiations is entitled to considerable weight").

App.28a

6. Reaction of the Class Members to the
Proposed Settlement
The small number of objections and requests to opt
out of the Settlement, and the large number of claims
filed, indicates a decisively positive response to the
Settlement and supports its approval. Only three objections were filed, and two of these are from "serial
objectors" with an extensive history of filing unsuccessful objections to class-action settlements. (Dkts. 1106,
1112.)5 Notice of the settlement was given to all
appropriate federal and state officials pursuant to
the Class Action Fairness Act, 28 U.S.C. § 1715, on
June 23, 2017. (Dkt. 1070.) Neither the Department
of Justice nor any state Attorney General has objected
to the Settlement. See Browning v. Yahoo!, Inc., No. 04
-cv-1463, 2007 WL 4105971, at *12 (N.D. Cal. Nov.
16, 2007) (holding that where governmental agencies
were given notice of the settlement and did not object,
factor weighed in favor of settlement).
As of November 24, 2017, the Settlement Administrator has received a total of 224,744 timely claim
forms and approved a total of 18,669 Actual Damage
Claims, 53,064 Non-Monetary Award Claims, and
5 These "serial" objectors, Christine Swartz and Marcia and Jimmy
Green, have failed to comply with the Notice requirement to list
all class action settlements to which they and their counsel
have objected during the past five years. (Dkt. 1109-6 at 7; Dkt.
1106 at 2; Dkt. 1112 at 2.) Because of their failure to follow the
Court-approved procedure for filing objections, the Court strikes
these Objections and finds that these objectors lack standing to
challenge the Settlement on appeal or otherwise. To ensure that
all potentially relevant arguments have been considered, however,
the Court goes on to consider the points raised in these objections,
(see Section III.C, infra), and overrules them on their merits.

App.29a

917,404 Convenience Award Claims, including 15,329
Actual Damage Claims and 754,007 Convenience
Award Claims that were submitted in connection with
the 2009 Proposed Settlement, and which will be
honored in this Settlement. (See Dkt. 1114-1 ¶¶ 15-16.)
There have also already been 93,639 visits by Class
members to the Consumer Credit Reporting Assistance
website, which will continue to remain available
through December 31, 2019, or, if later, the Effective
Date. Even ignoring the number of Class members who
have and are benefiting from the CCRA website, the
number of new claims alone collectively 28.6% more
than approved under the 2009 Proposed Settlement—
shows that the Settlement meets with approval from
Class members and the claim forms were easy to
understand and complete, and the notice program was
effective and valuable to Class members. See Marshall,
550 F.2d at 1178; Class Plaintiffs, 955 F.2d at 1291-96
(upholding trial court's grant of final approval over
Class member objections); see also Boyd, 485 F. Supp.
at 622 (finding that objections from only 16% of the
class was persuasive that the settlement was adequate).

C. Objections
Further confirming the fairness, reasonableness,
and adequacy of the Settlement, only three objections
have been filed. (Dkts. 1106, 1007 & 1112.) See Class
Plaintiffs, 955 F.2d at 1291-96; see also Nat'l Rural
Telecommunications Coop. v. DIRECTV, Inc., 221
F.R.D. 523, 529 (C.D. Cal. 2004) ("It is established that
the absence of a large number of objections to a proposed class action settlement raises a strong presumption that the terms of a proposed class action settlement
are favorable to the class members.") Because one of

App.30a

the three objections is from the White Objectors, and
even though the White Objectors apparently had no
involvement in negotiating this new settlement, it is
still relevant to note that a settlement should not be
rejected merely because certain named plaintiffs object.
Boyd, 485 F. Supp. at 624; Flinn, 528 F.2d at 1174.
Rather, in order to block a fairly negotiated settlement,
the merits of the objections must be substantial.
Boyd, 485 F. Supp. at 624. The Court evaluates each
objection in turn.
1. The Amount of the Settlement Is Fair,
Reasonable, and Adequate
Objectors Marcia and Jimmy Green (the "Green
Objectors"), Christine Swartz, and the White Objectors
argue that the amount of the Settlement should be
higher. The Green Objectors and the White Objectors
argue that the recovery is only a small fraction of the
total statutory damage recovery the Class could receive
if it were to prevail on all of its claims at trial, which
they estimate in the billions of dollars. (Dkt. 1107 at
10; Dkt. 1112 at 6-7.) The Court finds, however, that
these Objections fail to adequately consider the risks
that Plaintiffs face, including the risk that a class
might not be certified or that class certification might
not be maintained through trial, the risk that Plaintiffs
might not prevail on their claims that Defendants'
reports were inaccurate or that Defendants' conduct
might not be found willful, and the risk that any
aggregate statutory damage award could be reduced
through remittitur. See Murray v. GMAC Morg. Corp.,
434 F.3d 948, 954 (7th Cir. 2006) ("An award [under
the FCRA] that would be unconstitutionally excessive
may be reduced . . . after a class has been certified.
Then a judge may evaluate the defendant's overall

App.31a

conduct and control its total exposure.") Plaintiffs were
entitled to consider these risks in determining that
settlement was appropriate. See Hanlon, 150 F.3d at
1027 ("Settlement is the offspring of compromise; the
question we address is not whether the final product
could be prettier, smarter, or snazzier, but whether it
is fair, adequate, and free from collusion.") Courts
must tread cautiously when comparing the amount
of a settlement to speculative figures regarding "what
damages 'might have been won' had [plaintiffs] prevailed at trial." Linney v. Cellular Alaska P'ship, 151
F.3d 1234, 1242 (9th Cir. 1998) (quoting Officers for
Justice, 688 F.2d at 625). Indeed, "the very essence of
a settlement is compromise, a yielding of absolutes
and an abandoning of highest hopes." Id. (quoting
Officers for Justice, 688 F.2d at 624). The Court therefore overrules these objections.
The White Objectors, the Green Objectors, and
Objector Swartz also object that the amount of this
Settlement is, they argue, lower than the 2009 Proposed
Settlement. (Dkt. 1106 at 4; Dkt. 1107 at 3-4; Dkt. 1112
at 2-5.) As explained above, however, (see supra Section
III. B. 3. the total value of this Settlement is in fact
higher than the 2009 Proposed Settlement, taking into
account both the cash fund and the uncapped NonMonetary Relief made available to the Class. Furthermore, the awards each cash claimant will receive are
comparable to what they were estimated to receive
under the 2009 Proposed Settlement, and steps taken
to tailor the relief to the Class, simplify the claims
process, and deliver relief to more claimants make this
Settlement more beneficial to the Class.
This Settlement protects the expectations of Claimants to the 2009 Proposed Settlement while expanding

App.32a

claimed benefits to over 200,000 more approved Claimants. Actual Damage Claimants will receive awards
in the same dollar amount that they would have
received under the 2009 Proposed Settlement, despite
the fact that over 3,000 new Actual Damage Claimants
have been approved. Convenience Award Claimants,
including over 160,000 new Claimants who were not
approved to receive awards under the 2009 Proposed
Settlement, will also receive a distribution comparable
to what they would have received under the 2009
Proposed Settlement. This is especially remarkable
given that there were only 754,783 approved claimants
in that settlement, and over 160,000 additional Convenience Award Claimants will receive awards in this
Settlement. In addition, over 50,000 Class members
will receive Non-Monetary Awards valued at $19.95,
and almost 100,000 have already visited the CCRA website, which will continue to be available at least through
the end of 2019, benefiting another estimated 100,000
Class members. Overruling the White Objectors' and
Objector Swartz's objections that the Non-Monetary
Relief has little value, (see Dkt. 1106 at 5; Dkt. 1107 at
14), the Court finds that, as shown in John Ulzheimer's
declaration, the Non-Monetary Relief has substantial
value to the Class and offers information and assistance
that Class members could not obtain elsewhere without
paying fees, entering into agreements for services they
might not want, or sharing their personal information
with intrusive marketers. Overall, this Settlement is an
improvement over the 2009 Proposed Settlement and
is clearly fair.

App.33a

2. The Notice and Administration Expenses
are Reasonable
The White Objectors and the Green Objectors
argue that the notice and administration expenses are
too high, contending that these expenses are duplicative of the costs incurred in connection with the 2009
Proposed Settlement and should have been paid by
Class Counsel. (See Dkt. 1107 at 7; Dkt. 1112 at 10.)
The Court finds, however, that the notice had significant value for the Class, resulting in over 200,000
newly approved claims—a 28% increase in the number
of Class members who will receive claimed benefits—
not including the almost 100,000 Class members who
have visited the CCRA section of the Settlement
Website thus far and the further 100,000 estimated
visits expected through the end of 2019. (Dkt. 1114-1.
at 3, 6). Furthermore, the notice and claims process is
being conducted efficiently at a total cost of approximately $6 million, or $2.5 million less than the
projected 2009 Proposed Settlement notice and claims
process, despite intervening increases in postage rates
and general inflation. In addition, the Court finds that
the notice conducted in connection with the 2009
Proposed Settlement has significant ongoing value to
this Class, first in notifying in 2009 over 15 million
Class members of their rights under the Fair Credit
Reporting Act (the ignorance of which for most Class
members was one area on which Class Counsel and
White Objectors' counsel were in agreement), and
because of the hundreds of thousands of claims submitted in response to that notice, and processed and
validated by the claims administrator, which will be
honored in this Settlement. See In re Online DVDRental Antitrust Litig., 779 F.3d 934, 953 (9th Cir.

App.34a

2015) (holding that notice and administration costs
benefit the Class members by providing them notice,
due process, and "mak[ing] it possible to distribute a
settlement award in a meaningful and significant
way"). While crediting the full costs of both notice as
benefits to the Class would be duplicative, the Court
finds that $2.5 million of the 2009 Proposed Settlement notice costs may be credited as a benefit secured
to the Class, bringing the total benefit to the Class from
notice and administration expenses to $8.5 million,
which was the estimated amount of notice and administrative costs under the 2009 Proposed Settlement.
3. The Settlement Treats Class Members
Equitably
The White Objectors raise a number of objections
to the allocation of Settlement relief, including arguing that the Settlement unfairly favors Class members
who can verify actual damages, (Dkt. 1107 at 15), that
it unfairly favors those who can attest to inaccurate
reporting, (Dkt. 1107 at 16), and that it unfairly disfavors those who have claims against multiple Defendants. (Dkt. 1107 at 18.) Regarding the larger awards to
Claimants who provide documentation of actual damages, the Court finds that these awards are appropriate
to compensate these Class members for the greater
injuries they suffered. See Andrade v. Chase Home
Fin., L.L.C., No. 04-cv-8229, U.S. Dist. LEXIS 32799,
at *20 (N.D. Ill. Dec. 12, 2005) (holding that evidence
of actual damages is "quite meaningful" in determining
amount to award in statutory damages). Furthermore,
these awards are appropriately calibrated to allow
those with proof of a denial of employment the largest
statutory damage award of $750, toward the top end
of the $100-1,000 range, those denied a mortgage or

App.35a

housing rental a mid-range $500 award, and those
denied other credit a $150 award, toward the low end of
the statutory range. See In re Broadcom Corp. Secs.
Litig., No. SACV 01-275 DT, 2005 U.S. Dist. LEXIS
41976, *7 (C.D. Cal. 2005) ("[C]ourts recognize that an
allocation formula need only have a reasonable, rational basis, particularly if recommended by experienced
and competent counsel."); see also Glass v. UBS Fin.
Servs., No. 06-cv-4068, 2007 U.S. Dist. LEXIS 8476,
at *24-25 (N.D. Cal. Jan. 26, 2007) (rejecting objection to differential allocation among class members).
Because these awards are appropriately calibrated to
the harm suffered, the Court overrules these objections.
The Court also overrules White Objectors' argument that the Settlement "impermissibly favors individuals who can attest that they believe that they had a
credit report issued by a Defendant that contained
[debts] discharged in bankruptcy but were not reported
as discharged in bankruptcy." (Dkt. 1107 at 15.) Neither Convenience Award Claimants nor those submitting claims for Non-Monetary Awards are required to
make any attestation to submit a claim in this Settlement. (Dkt. 1107-9 at 6; Dkt. 1046 at 8-9.) This objection
simply does not apply to the claim process provided
by this Settlement. Moreover, while an attestation
requirement existed for Convenience Award claims
made pursuant to the 2009 Proposed Settlement, those
claimants were not "favored," as the White Objectors
suggest, particularly given that the entire Class had the
option to submit such claims without any attestation
requirement in response to the notice of this Settlement.
Third, the Court has already correctly rejected
the White Objectors' argument, which they advanced
against the 2009 Proposed Settlement, that Class mem-

App.36a

bers whose reports were issued by multiple CRAs
should receive more compensation than those whose
reports were issued by a single CRA. (Dkt. 1107 at 18;
see Dkt. 837 at 28.) Because having had reports ordered
from multiple CRAs is not tied to any increased actual
harm, the Settlement properly does not grant Class
members any increased compensation on this basis.
Because the Settlement's allocation of claims is appropriately tied to the actual harm suffered by Class
members, the Court overrules these objections.
4. The Settlement 'Does Not Certify an
Actual Damages Class
The White Objectors argue that certification of
actual damage claims is improper because individual
causation issues predominate over common questions
regarding such claims. (Dkt. 1107 at 16-17.) As the
Court has previously explained, however, allocating
statutory damage awards fairly in accordance with
the harm suffered does not transform the class from
a statutory damages class into an actual damages
class. (See Dkt. 837 at 31.) Plaintiffs were entitled to
forego their actual damages claims in order to achieve
class certification more readily on their statutory
damages claims, so long as class members with substantial actual injuries were provided an opportunity
to opt out of the class and pursue individual claims.
Murray, 434 F.3d at 953. In addition, that the Settlement provides Defendants with a release for all claims
arising from the facts in this case (including actual
damages claims) is standard in class actions where, as
here, Rule 23(b)(3) notice and opt-out rights are provided. See, e.g., Whitford v. First Nationwide Bank, 147
F.R.D. 135, 142-43 (W.D. Ky. 1992) (approving settlement release of "any and all claims for any and all

App.37a

types of damages" and concluding that "[i]t is common
for a class action settlement agreement to contain a
release of "any and all related civil claims the plaintiffs had against the settling defendantlil based on the
same facts"). Neither the standard scope of the release
here, nor the fact that the allocation of monetary
benefits under the Settlement is designed to provide
larger statutory damage payments to Class members
who can show actual damages transforms the nature of
the class certification order sought by Plaintiffs and
granted by the Court. The Court therefore overrules
this objection.
5. The Settlement Notice Was Proper
The Green Objectors and the White Objectors
object to the form of the Court-Approved Notice.
Regarding the Green Objectors' argument that the
notice fails to advise the Class members of the magnitude of the claims being compromised, (Dkt. 1112 at 7),
the Court finds that speculation regarding maximum
theoretical potential recoveries is not necessary and
in general is not included in class notices. The Notice
properly advised Class members that they would
give up the right to bring any suit for the claims
raised in this case if they did not opt out and referred
Class members to the Settlement Website for additional information about the claims in the case. The
FAQs and detailed notice available on the Settlement
Website explain the release in further detail and also
refer Class members to the Settlement Agreement (a
copy of which can also be viewed on the Settlement
Website), which contains the full release terms. The
White Objectors argument that the claim form does
not adequately explain the criteria used for evaluating
claims, (Dkt. 1107 at 13 n.9), is also incorrect. The claim

App.38a

form and the additional information available on the
Settlement Website both describe the available claim
types and the respective information requirements
for submitting claims. The Court therefore overrules
these objections.
6. The Settlement and Requested Attorneys'
Fees Appropriately Protect the Class from
Being Penalized for the 2009 Proposed
Settlement Having Been Overturned
White Objectors object that Class Counsel's fee
request breaks a purported commitment that they
argue Class Counsel made to pay any notice costs
associated with this Settlement out of their attorneys'
fees. (Dkt. 1123 at 1-3.) The Court has reviewed the
hearing transcripts and finds that this is not an
accurate characterization of the commitments made
by Class Counsel. Rather, Class Counsel's commitments
were (1) Class Counsel would deduct the costs of a
supplemental notice conducted in connection with the
2009 Proposed Settlement, which totaled $567,284.91,
from their fees, (see July 26, 2013 Hr'g Tr. at 28-29); (2)
if a new Settlement were not reached, Class Counsel
would cover any costs of re-notice to inform the Class
that, in the absence of settlement, Plaintiffs planned
to go forward with litigation, (August 14, 2013 Hr'g
Tr. at 180-81; see Dkt. 956 at 19), and (3) Class Counsel
would protect the Class from being penalized for the
2009 Proposed Settlement having been overturned.
(See July 26, 2013 Hr'g Tr. at 28-29; August 14, 2013
Hr'g Tr. at 136-37.)
Regarding the first commitment, Class Counsel
proposed at the Final Approval hearing to deduct the
supplemental notice costs from their fees, reducing

App.39a

their fee request by $567,284.91. The second commitment is not relevant, because a new settlement was
reached. Regarding the third commitment, the structure of this Settlement ensures that, far from being
penalized, the Class will benefit from an improved
Settlement. (See supra Section III. B. 3. However, the
Court notes that this third commitment may have
created some ambiguity and difference of opinion in
terms of whether Class Counsel was required to pay
the costs of re-noticing the Class. In the eyes of the
White Objectors, the current Settlement is worse than
the 2009 Proposed Settlement, and thus they believe
the Class will be penalized if Class Counsel does not
pay the notice costs out of their attorneys' fees. If the
White Objectors were right that this settlement is
worse, then Class Counsel might be required to cover
the notice costs in order to keep their promise not to
penalize the Class for the previous mistakes of Class
Counsel. In Class Counsel's view, however, the Class
is not being penalized, because the instant settlement has additional nonmonetary value and has
been improved in various other ways. Moreover, Class
Counsel claims that both the Actual Damage Awards
and Convenience Awards under the current Settlement
will be in the same range as they would have been in
the 2009 Proposed Settlement, and Class Counsel
committed to ensuring that would be the case so as not
to penalize the Class for the 2009 Proposed Settlement
having been overturned. (May 30, 2017 Hr'g Tr. at
29:13-18 ("I'll represent to the Court the convenience
awards, if they're not in the represented range, if for
some reason it's not going to be achievable at 15 to
$20, then we would expect—and by "we," again, I
mean plaintiffs' counsel—we would expect the Court
to address that with our attorneys' fees.").) Thus, upon

App.40a

a review of the record, the Court does not believe
that Class Counsel has failed to follow through on one
of its prior promises. For the foregoing reasons, Class
Counsel have fulfilled their commitments to the Class.
White Objectors mischaracterize Class Counsel's
statements at the July 26, 2013 status conference,
where Class Counsel stated that, if the Settlement
otherwise remained unchanged, approximately $6.57 million in new money would be needed to replace
the value that had been spent on notice and other
costs in connection with the 2009 Proposed Settlement.
(Id. at 29.) Class Counsel went on to observe that
there were "several sources" for restoring that value
to the Class as part of a new, improved settlement.6
First, the Defendants could contribute additional value;
second, notice costs could be reduced; and third,
attorneys' fees could be reduced. Regarding a reduction
in attorneys' fees, Class Counsel stated "that's certainly
a possibility." (Id.) Then, at the later hearing on appointment of Rule 23(g) Counsel, Class Counsel stated:
We'd always like to have a better settlement.
We would always like to have a bigger settlement. That's what we do. That's how we
achieve success. If we can get a bigger settlement or a better settlement, we will. If we
decide, however, that settlement is in the
best interest of the class, and because of the
current state of the law, or whatever, and
we can't get additional money, then what
6 The Court further notes that the July 23, 2016 status conference
was framed as a non-dispositive day to discuss various topics,
including how much settlement value had been lost. (See December
11, 2017 Hr'g Tr. at 44:6-45:16, 46:22-48:15.)

App.41a

I'm telling you is, Your Honor, we will not
penalize the court—class. And if that means
we will reduce our attorneys' fees, then we
will do so.
(August 14, 2013 Hr'g Tr. at 137:5-14.) Class Counsel
have honored this commitment not to penalize the
Class by ensuring that Actual Damage Claimants will
receive awards in the same dollar amounts as would
have been paid under the 2009 Proposed Settlement
and by making clear from their initial fee application
that they did not request any fee that would result in
insufficient amounts remaining in the Convenience
Award Fund to issue Convenience Awards comparable
to what Class members were estimated to receive under
the 2009 Proposed Settlement. (Dkt. 1096 at 21 ("Class
Counsel's requested fee here is based on claims data
to date, with two weeks remaining in the claims period.
Should additional claims submitted by the final claims
deadline result in more funds than expected being
required to satisfy approved claims, Class Counsel
will revise their fee request downward in advance of
the final approval hearing in order to ensure that
sufficient funds remain available to pay claims.")
Continuing to protect the Class's interests and
ensure that Class members are not penalized for the
2009 Proposed Settlement having been reversed, when
final claims numbers proved higher than anticipated,
Class Counsel offered to delay any payment of attorneys' fees until it could be assured that Convenience
Award Claimants would receive at least $20 each, at
the top of the range estimated in the Court-approved
Notice and similar to the awards originally estimated
in the 2009 Proposed Settlement. (Dkt. 1118 at 9.)
Thus, Class Counsel has consistently calibrated their

App.42a

fee request to ensure that the Class members would
receive benefits comparable to what they were estimated to receive under the 2009 Proposed Settlement,
fulfilling their commitment that the Class would not
be penalized.
In addition, the new value secured on behalf of
the Class in the form of Defendants' new $1 million
cash contribution, the new Non-Monetary Relief, and
the effective, efficient notice and claims process
(conducted for an estimated $6 million, as opposed to
$8.5 million in the 2009 Proposed Settlement), ensured
that the Class's interests were protected. Because the
value of the non-cash components of this Settlement
together with the cash benefits exceed the value of
the 2009 Proposed Settlement, the Class members have
not been penalized, but have benefited further from
this new Settlement. As Class Counsel explained at
the August 14, 2013 Hearing, Class Counsel's commitment not to "penalize" the Class meant that the
amount provided to the Class would never be less
than under the 2009 Proposed Settlement.? Setting

7 Class Counsel envisioned "three possibilities" for a potential
future settlement at that hearing. (August 14, 2013 Hr'g Tr. at
181-82.) These possibilities included (1) "the defendants will
increase the amount of funds available to pay for the new notice
so that the net to the class will be no less than it would have
been under the original proposed settlement"; (2) Class Counsel
would reduce their fee request to accommodate that notice"; and
(3) "the parties would agree to share that." (Id. at 181:18-182:1.)
Among these possibilities, which Class Counsel admitted were
"somewhat speculative," (id at 182 3-4), Class Counsel did not
consider a fourth possibility, which eventually occurred, which
was that Defendants agreed to provide additional value to the
Class through non-monetary benefits. As explained-above, these
non-monetary benefits and other improvements to the Settlement

App.43a

aside the qualitative improvements in the settlement
(e.g., the ways that the nonmonetary relief is better
tailored to the needs of the class and improvements
to the claims process), the net value to the class under
this Settlement, including the Court's conservative
assessment of the value of the non-monetary relief,
together with the contributions made by a reduction
in Class Counsel's attorneys fees, will result in a
monetary benefit to the class greater than that under
the 2009 Proposed Settlement. (See infra Section III.D.)
Plaintiffs' expert, John Ulzheimer, estimates the
value of the package of a free credit report and two
free credit scores, made available to all Class members
who did not choose to claim another benefit, at $19.95.
(Dkt. 1111 ¶ 25.) Based on this evidence, Class Counsel
argued that it could have defended a settlement
valuation in excess of $200 million under Ninth Circuit
law that settlements must be valued based on the
total value made available to the Class. See Williams
v. MGM-Pathe Communs. Co., 129 F.3d 1026, 102627 (9th Cir. 1997) (holding that it was an abuse of
discretion for a district court to award fees based on
the value of claims made under a settlement, rather
than the amount made available) (citing Boeing Co.
v. Van Gemert, 444 U.S. 472, 480-81 (1980)); see also
Rainbow Bus. Sols. v. MBF Leasing LLC, No. 10-CV01993-CW, 2017 WL 6017844, at *2 (N.D. Cal. Dec.
5, 2017) ("Fairness of the fee should be determined
by the amount made available to the class, not the
amount actually paid in claims."); Ellsworth v. U.S.
Bank, NA., 2015 WL 12952698, at *4 (N.D. Cal. Sept.
24, 2015) ("precedent requires courts to award class
terms ensure that this Settlement is more valuable to the
Class, fulfilling Class Counsel's commitment.

App.44a

counsel fees based on the total benefits being made
available to class members rather than the actual
amount that is ultimately claimed"); Hopson v. Hanesbrands Inc., 2009 WL 928133, *11 (N.D. Cal. Apr. 3,
2009) ("The appropriate measure of the fee amount is
against the potential amount available to the class,
not a lesser amount reflecting the amount actually
claimed by the members."); Miller v. Ghirardelli
Chocolate Co., 2015 WL 758094, at *5 (N.D. Cal. Feb.
20, 2015) (same); Miller v. Sw. Airlines Co., 2014 WL
11369764, at *2 (N.D. Cal. Mar. 21, 2014) (same).
However, Williams only dealt with fees based on the
total cash amount available in the common fund—
none of Class Counsel's cited cases directly suggests
that a nonmonetary benefit like the one at issue
here, particularly one that is available only as an
alternative to a monetary benefit, should be valued
based on its purported availability to all 15 million
plus class members.
Thus, Class Counsel instead conservatively valued
the new Non-Monetary Relief at an average of $1 per
Class member, or $15 million in total, including both
the Non-Monetary Award package and the information
provided on the CCRA website. (Dkt. 1096 at 9.)
Even based on this more conservative valuation, Class
Counsel requested only 21% of the value secured for
the Class in attorneys' fees, less than the Ninth
Circuit's 25% benchmark. (Id.) Furthermore, Class
Counsel excluded over $5.4 million in time and expenses incurred from April 1, 2009 to May 1, 2013,
from their fee request, the period of conflict identified
by the Ninth Circuit, despite the fact that Ninth Circuit
precedent allows district courts discretion to award
fees for work performed during a period of conflict.

App.45a

(Dkt. 1097-3); Rodriguez v. Disner, 688 F.3d 645, 65758 (9th Cir. 2012) (holding that district court "could
have reasonably concluded" that conflicted counsel was
entitled to fees). At each step, Class Counsel could
have justified a far higher fee request if this had
been a new settlement written on a blank slate, but
chose instead to calibrate their fee request consistent
with their commitment that the Class would receive
the same or better relief under this Settlement. The
Court therefore overrules this objection.
7. Class Counsel's Interests are Aligned
With Those of the Class
The Court also rejects White Objectors' argument
that Class Counsel's interests conflict with those of
the-Class. First, White Objectors argue that a conflict
exists because Class Counsel has an interest in
obtaining a higher fee award, and avoiding payment
of notice and administrative costs, which conflicts with
the Class's interests in receiving the largest possible
claims awards. (Dkt. 1107 at 2.) As an initial matter,
the Court notes that there is an inherent tension
between attorneys' interests and their clients' in any
matter regarding fees. See In re Washington Pub.
Power Supply Sys. Sec. Litig., 19 F.3d 1291, 1302 (9th
Cir. 1994) ("Because in common fund cases the relationship between plaintiffs and their attorneys turns
adversarial at the fee-setting stage, courts have
stressed that when awarding attorneys' fees from a
common fund, the district court must assume the role
of fiduciary for the class plaintiffs.") Because court
review of fee awards in class actions pursuant to the
Rule 23 approval process appropriately protects the
Class, this inherent tension does not create an ethical
conflict, much less a disqualifying one.

App.46a

The Court also rejects White Objectors' argument
that Class Counsel is conflicted because Class Counsel
supposedly had an interest in reaching a settlement
similar to the 2009 Proposed Settlement and did not
have an incentive to litigate the case to trial. Not
only did Class Counsel have the incentive to do so,
they actually did litigate aggressively, moving for
leave to file an amended Complaint and proposing a
schedule for class certification and trial. (Dkts. 1005,
1027.) Far from simply "keeping the settlement the
same," as the White Objectors argue Class Counsel
had an incentive to do, Class Counsel fought hard to
secure additional relief for the Class. With the addition
of new counsel having no connection to the prior conflict, Class Counsel even walked away from one
unsuccessful mediation and continued to litigate until
a second mediation ultimately secured a better Settlement for the Class. (Dkt. 1097 ¶ 22.) Because Class
Counsel's interests are aligned with those of the Class,
the Court overrules these objections.
8. Class Counsel's Lodestar Calculation Is
Proper and Well Supported
Objector Swartz and the Green Objectors argue
that Class Counsel's lodestar is not adequately supported and should be reduced. (Dkt. 1106 at 4-6, 8; Dkt.
1112 at 8.) First, they argue that the time Class
Counsel have spent to secure this Settlement after
the Ninth Circuit's Radcliffe I decision should not be
included in the lodestar calculation. (Dkt. 1106 at 4-5;
Dkt. 1112 at 8.) The Court finds, however, that the time
Counsel have invested in this case since the Ninth
Circuit's decision was reasonable, necessary, and beneficial to the Class. Because the conflict identified by
the Ninth Circuit was not the result of bad faith or

App.47a

improper motives, (Dkt. 956 at 29), and terminated
when the 2009 Proposed Settlement was vacated,
no taint from the prior conflict carries over into the
post-conflict period. Indeed, the Ninth Circuit held
in Rodriguez that a district court was not required to
deny class counsel all compensation for work performed even during the period when a conflict of
interest existed. Rodriguez v. Disner, 688 F.3d 645,
657-58 (9th Cir. 2012) (holding that district court "could
have reasonably concluded" that conflicted counsel was
entitled to fees). Class Counsel here nevertheless
have excluded all time and expenses from the period
of conflict from their lodestar. (Dkt. 1096 at 12.) The
Court overrules this objection.
The Court also overrules Objector Swartz's objection that Class Counsel should be required to submit
their detailed time records. (Dkt. 1106 at 6, 8.) In
moving for fees to be paid from a common fund,
counsel is not required to submit detailed time records.
Here, each of the Class Counsel firms submitted
declarations including summaries breaking down the
time expended by each individual timekeeper for whom
compensation is sought. (Dkts. 1097-1103), and Class
Counsel also submitted a lengthy discussion summarizing the extensive work they have performed in this
case over the past several years. (Dkt. 1096 at 2-6, 1314.) The Court finds based on these submissions and
its intimate knowledge of the history of this litigation
and the work performed by Class Counsel, that the
tasks performed and hours expended were reasonable.
Further confirming the reasonableness of Class Counsel's lodestar submission, Professor Geoffrey Miller, a
well-respected expert on attorneys' fees, reviewed Class
Counsel's declarations and opined that "the reported

App.48a

hours are appropriate in light of the size and complexity of this case." (Dkt. 1110 ¶ 4.)
Third, the Court overrules the Green Objectors'
objection that, in performing a lodestar cross-check,
historical billing rates, rather than current rates,
should be used. (Dkt. 1112 at 8.) Courts in this Circuit regularly apply current billing rates in evaluating
fee requests in multi-year litigation to account for
the delay in payment. See In re Wash. Pub. Power
Supply Sys. Sec. Litig., 19 F .3d 1291, 1305 (9th Cir.
1994). Accounting for the delay in payment is particularly appropriate in this case, which has been pending
for 12 years, because Class Counsel performed years
of work in this case before the conflict arose and have
further performed several years of additional work
since the conflict was cured. Moreover, the Court notes
that the fee awarded here represents an "inverse" or
"fractional" multiplier on the time and expenses Class
Counsel have expended, making the question of which
billing rates are used immaterial to the results of the
lodestar cross-check. A much higher multiplier (e.g.,
that which would apply if historical rates were used)
could easily be justified by the work that Class Counsel
have performed in achieving the Settlement.
9. Approval of This Settlement Has No Bearing
on the Court's Long-Decided and Proper
Award of Fees for Achieving the Injunctive Relief Settlement
The Injunctive Relief Settlement was entered into
in April 2008 and approved in August 2008, before
the conflict later identified by the Ninth Circuit arose.
The Injunctive Relief Settlement was not challenged on
appeal. Radcliffe 1, 715 F.3d at 1162. Objector Swartz

App.49a

nevertheless objects to the Court's award, already
issued years ago, of attorneys' fees for achieving the
Injunctive Relief Settlement. (Dkts. 775, 839.) Objector
Swartz disparages the Injunctive Relief Settlement as
meriting no fee because it merely "requires Defendants
to follow the law." (Dkt. 1106 at 7.) To the contrary,
the Injunctive Relief Settlement included specific
requirements that Defendants implement highly
detailed practice changes, which changed the CRAB'
default treatment of debts discharged in bankruptcy
to ensure accurate reporting and prevent consumer
harm. (Dkt. 228.) This Court found that the Injunctive
Relief Settlement effected "groundbreaking changes
to the credit reporting industry." (Dkt. 775 at 9.) And
Plaintiffs' expert, John Ulzheimer, notes in his declaration in support of this Settlement that the Injunctive
Relief continues to benefit consumers today. (Dkt.
1111 at 9 ("The retroactive and prospective reporting
changes implemented by each of the major consumer
credit reporting agencies (Equifax, Experian, and
TransUnion) appears, from my vantage point, to have
all but eliminated the inaccurate credit reporting of
pre-bankruptcy, statutorily dischargeable debts as
being 'due and owing' after the filing date of Chapter
7 bankruptcies.").) Because all of this valuable relief
was secured and implemented before the conflict
regarding the incentive award provision arose, the
conflict later identified by the Ninth Circuit has no
bearing on the value of any of the work performed by
Class Counsel to secure injunctive relief. (See Dkt.
575 at 10 (allocating one-half of the time spent from
the inception of the litigation to April 3, 2008 to
obtaining injunctive relief).)

App.50a

Contrary to Objector Swartz's argument, (see Dkt.
1106 at 7), the fact that Class Counsel's motion for
Injunctive Relief Fees was brought later than the
motion for approval of the Injunctive Relief Settlement
itself, around the same time as the Motions for Approval and Fees in connection with the Monetary Relief
Settlement, in no way retroactively invalidates all of
Class Counsel's work securing the Injunctive Relief
Settlement. The time that Class Counsel allocated to
the Injunctive Relief Settlement, and which this Court
compensated Counsel for in awarding Injunctive Relief
Fees, was incurred long before the conflict arose, prior
to April 2009. (Dkt. 575 at 10; Dkt. 575-3 at 12; 575-4
at 22; 575-5 at 3-4; 575-6 at 10-11; 575-7 at 8-9; 5759 at 4.) For all the reasons set forth in Plaintiffs'
prior briefing and Declarations and in this Court's
orders,8 this time was reasonable, necessary, and
greatly benefitted the Class, and the Court therefore
overrules this objection.
10. The Class Representatives are Adequate
and Entitled to Service Awards
The Green Objectors argue that the Class Representatives who were part of the 2009 Proposed Settlement should be denied service awards. (Dkt. 1112 at
10.) Courts in the Ninth Circuit have repeatedly found
service awards appropriate "to compensate class representatives for work done on behalf of the class [and]
to make up for financial or reputational risk undertaken
in bringing the action." Rodriguez v. West Publishing
Corp., 563 F.3d 948,958 (9th Cir. 2009). Here, service
awards are justified to compensate all of the Class
8 Dkts. 573, 575; 575-3; 575-4; 575-4; 575-6; 575-7; 575-9; 775 &
839, incorporated here by reference.

App.51a

Representatives for the significant contributions they
have made to achieve the excellent result secured for
the Class.) This case in not like Rodriguez, where the
conflict existed "from day one," because the class representatives signed original retainer agreements which
included "incentive agreements." Rodriguez, 563 F.3d
at 959. Here, by contrast, the conflict identified by
the Ninth Circuit did not arise until years into the
litigation, well after the Class Representatives had
committed significant time and effort on behalf of the
Class. (Dkt. 952 ("[Tlhis conflict was brief and caused
by a specific provision in a now-defunct settlement"
and was "less severe [than the conflict in Rodriguez)
because it emerged on the eve of settlement").) Second,
unlike in Rodriguez, the Class Representatives here
committed additional time and effort to the litigation
after the conflict was cured, which efforts helped
achieve the Settlement. The Court declines the Green
Objectors' invitation to punish some of the Class
Representatives for a conflict that was limited in time
and inadvertent.
The Green Objectors also argue that the common
fund doctrine supposedly prohibits service awards
entirely. (Dkt. 1112 at 10.) This is clearly at odds with
decades of Ninth Circuit common fund case. law. See,
e.g., Rodriguez, 563 F.3d at 958 (noting that service
awards "are fairly typical in class action cases"). The
lone authorities Green Objectors cite—two 19th Century cases that predate Rule 23 by nearly a century—
considered which expenses individual creditor/litigants
could recover from trust proceeds when their litigation generated benefits for the trust, and have no
application to the class action context. Court therefore
overrules these objections and finds that the Class

App.52a

Representatives are adequate and entitled to service
awards.
D. Attorneys' Fees and Expenses
The Court approves reasonable attorneys' fees
to Class Counsel in the amount of $8,830,133.24, a
$2,331,029.82 reduction below the fees originally
requested, (see Dkt. 1096 at 23), and which the Court
further reduces by $567,284.91 (representing Class
Counsel's commitment to pay for the costs of the 2009
Supplemental Notice) for a total award of $8,262,
848.33 million. Conservatively considering only relief
actually delivered, not just made available, to the Class,
this fee award (before refunding the $567,284.91 in
Supplemental Notice costs to the Class) represents
approximately 20.0% of the common fund, well below
the Ninth Circuit's 25% benchmark.9 Vizcaino v.
Microsoft Corp., 290 F.3d 1043, 1048-49 (9th Cir. 2002);
Hanson v. Chrysler Corp., 150 F.3d 1011, 1029 (9th Cir.
1998); Six Mexican Workers v. Arizona Citrus Growers,
904 F.2d 1301, 1311 (9th Cir. 1990). The Court finds
that this 5% fee reduction below the 25% benchmark,
and adding $2,898,314.23 to the cash available for
distribution to the Class, is appropriate given the full
history and context of this Settlement.
In valuing the common fund for attorneys' fee
purposes, the Court conservatively values the Non9 As explained further below, for the purposes of attorneys' fees
the Court values the common fund at $44,150,666.18 (which
includes $38,650,666.18 in cash, $3 million in non-monetary
value, and $2.5 million in benefit from the first round of notice
and administration). Thus, 20% of $44,150,666.18 is $8,830,133.24.
From this fee award, Class Counsel has agreed to return $567,
284.91 in Supplemental Notice costs.

App.53a

Monetary relief at $3 million, including approximately
50,000 approved Non-Monetary Award claims, valued
at $19.95 each, and approximately 200,000 visits to
the CCRA Website (including estimated future visits
through the end of 2019), valued at $10 each on
average.10 That $10 average valuation includes the
access to free legal counsel provided by the website,
which seems particularly valuable. The Court also
includes $2.5 million in notice and administration
costs incurred in connection with the 2009 Proposed
Settlement in the common fund, finding that these
expenditures had a substantial and non-duplicative
benefit to the Class. Together with the approximately
$37.7 million on deposit in the registry of the Court
and the Defendants' new $1 million cash contribution,
this creates a total common fund of approximately
$44.2 million.
The Court further finds that, even conservatively
valuing the Non-Monetary Benefits at $3 million, this
10 The Court has chosen not to adopt Class Counsel's proposed
valuation of the Non-Monetary Relief based on the total-value
made available to the Class. (See Dkt. 1096 at 9-10.) Although
Class Counsel argues that Ninth Circuit precedent supports its
valuation, see Williams v. MGM-Pathe Commc'ns Co., 129 F.3d
at 1027, the cited case does not cover a settlement with a nonmonetary benefit component. The Court believes that, particularly
in the context of this Settlement, it is more appropriate to value the
Settlement based on relief actually delivered to Class members.
See Fed. R. Civ. P. 23(h) committee note on 2003 amendment ("One
fundamental focus is the result actually achieved for class
members, a basic consideration in any case in which fees are sought
on the basis of a benefit achieved for class members."). It should
be noted, however, that in declining to adopt Class Counsel's
proposed valuation, the Court does not find that Class Counsel's
valuation lacks a good-faith basis or that, in making the request,
Class Counsel violated any duty to the Class.

App.54a

Settlement will provide a net amount delivered to
the to the Class that is higher than would have been
provided under the 2009 Proposed Settlement. Under
that Settlement, Actual Damage Claimants would have
received approximately $5.5 million, and the Convenience Award Fund would have been approximately
$20 million, for a total estimated amount of $25.5
million in claimed benefits delivered to the Class. Here,
the Actual Damage Awards will total $7.1 million,
the Non-Monetary Benefits are conservatively valued
at $3 million, and the initial proposed Convenience
Award fund is $13.5 million. When the funds from
the Court's decision to reduce attorneys' fees by a total
of $2,898,314.23 are added to increase the Convenience Award Fund to approximately $16.4 million,
these components total approximately $26.5 million in
net direct benefits delivered to Class members, which
is greater than the net monetary benefit projected
under the 2009 Proposed Settlement.11
A lodestar cross-check further confirms that the
awarded fee is reasonable. The Court has reviewed
Class Counsel's lodestar and rates and finds that Class
Counsel's collective lodestar attributable to this Settlement is $11,830,950.71 for work performed over more
than 12 years of litigation. This lodestar figure does not
include any hours expended during the period of con11 In addition, the Court believes that those Class members
taking advantage of the Non-Monetary Benefits offered by this
Settlement (including the opportunity to seek legal assistance
directly from Class Counsel, an opportunity which 71 class members have already exercised) will potentially receive a value greater
than that offered by the convenience award opportunity, which
would have been their only option under the 2009 Proposed
Settlement.

App.55a

flict identified by the Ninth Circuit in Radcliffe v. Experian Info. Solutions, Inc., 715 F.3d 1157 (9th Cir.
2013) ("Radcliffe I"), from April 1, 2009 to May 1, 2013.
Nor does it include any time that has been allocated
to the Injunctive Relief Settlement in this action.
Class Counsel shall be separately compensated
for time spent obtaining Injunctive Relief according
to the Court's Injunctive Relief Fee Order, which the
Court hereby reaffirms. (Dkts. 775, 839.) The Court
incorporates by reference its previous Orders and finds,
for the reasons set forth in the Orders and in the
briefing and declarations submitted in support of Class
Counsel's Motion for Injunctive Relief Fees, (see Dkts.
573, 575, 575-3, 575-4, 575-5, 575-6, 575-7, 575-9),
that the awards of fees and expenses granted therein
are reasonable.
Class Counsel's hourly rates are consistent with
current market rates for complex class action legal
services in this district and are accordingly reasonable
in this matter, particularly in light of the fact that Class
Counsel have extensive experience in consumer class
actions, other complex cases, and Fair Credit Reporting
Act ("FCRA") litigation. The Court also finds that the
work performed was reasonable and necessary.
The fee awarded here represents an inverse multiplier of 0.75, reflecting that the fees awarded are less
than the total time Class Counsel have expended in
obtaining this Settlement. This lodestar cross-check
confirms that the requested fee is reasonable, because
the inverse multiplier is well below the multipliers
typically approved in the Ninth Circuit. See Steiner v.
Am. Broad Co., 248 Fed. Appx. 780, 783 (9th Cir. 2007)
(common fund settlement with fee based on percentage of 24% held reasonable, and lodestar cross-check

App.56a

indicated a multiplier of approximately 6.85, which
was well within the range of multipliers allowed in
other cases); see also Vizcaino, 290 F.3d at 1051 n.6
(noting that a multiplier is frequently awarded in common fund cases when the lodestar method is applied
and citing cases with multipliers ranging from 0.6 to
19.6, with most of the cases ranging from 1.0 to 4.0 and
a bare majority of cases in the 1.5 to 3.0 range); In re
Wal-Mart Stores, Inc. Wage and Hour Litig., No. 062069, 2011 WL 31266, at *7 (N.D. Cal. Jan. 5, 2011)
(approving 1.4 multiplier as "warranted in view of
the results counsel achieved for the class"); Hopson v.
Hanesbrands Inc., No. 08-cv-0844, 2009 WL 928133,
at *12 (N.D. Cal. April 3, 2010) (`"[Multiples ranging
from one to four are frequently awarded in common
fund cases when the lodestar method is applied.")
(quoting In re Prudential Ins. Co. Am. Sales Practices
Litig., 148 F.3d 283, 341 (3d Cir. 1998)). The fee awarded is more than reasonable given the fact that Class
Counsel have expended their considerable time and
resources in this litigation on a completely contingent
basis, and given the complex nature of the issues
involved. See Ballen v. City of Redmond, 466 F.3d
736, 746 (9th Cir. 2006); Kerr v. Screen Extras Guild,
Inc., 526 F.2d 67, 70 (9th Cir. 1975)).
The Court further approves expenses to Class
Counsel in the amount of $838,836.94. These expenses
exclude any expenses incurred during the period of
conflict identified by the Ninth Circuit in Radcliffe
from April 1, 2009 to May 1, 2013 (roughly $200,00),
and also exclude any expenses previously allocated to
obtaining injunctive relief (See Dkts. 775, 839.) The
expenses are reasonable, and Class Counsel bore these
out-of-pocket expenses over 12 years of litigation with

App.57a

no promise of reimbursement. Because these expenses
were necessary in conjunction with this litigation and
its resolution for the benefit of the Class, they are
reimbursable. In re Media Vision Tech. Sec. Litig.,
913 F. Supp. 1362, 1366 (N.D. Cal. 1996) (citing Mills
v. Electric Auto-Lite, 396 U.S. 375, 391-92 (1970).
The Court approves a service award of $2,500 each
to Class Representatives Jose Hernandez, Kathryn
Pike, Robert Randall, Bertram Robison, and Lewis
Mann. The Court finds that these amounts are reasonable in light of the Class Representatives' actions
taken to protect the interests of the Class, the degree
to which the Class has benefited from the Class
Representatives' actions, and the amount of time and
effort the Class Representatives have expended in
pursuing the litigation. See Staton v. Boeing Co., 327
F.3d 938, 977 (9th Cir. 2003).
W. Disposition
For the reasons set forth above, the Motion for
Final Approval and Motion for Attorneys' Fees are
GRANTED and the Settlement is hereby APPROVED.
It is therefore ORDERED that:
1. The Court certifies, solely for purposes of effectuating the Settlement, the following Settlement Class:
All consumers who have received an order of
discharge pursuant to Chapter 7 of the United
States Bankruptcy Code and who, at any
time between and including March 15, 2002
and May 11, 2009 (or, for California residents
in the case of Trans Union, any time between
and including May 12, 2001 and May 11,
2009), have been the subject of a Post-bank-

App.58a

ruptcy Credit Report issued by a Defendant in
which one or more of the following appeared:
A Pre-bankruptcy Civil Judgment that was
reported as outstanding (i.e. it was not reported
as vacated, satisfied, paid, settled or discharged in bankruptcy) and without information sufficient to establish that it was, in fact,
excluded from the bankruptcy discharge;
A Pre-bankruptcy Installment or Mortgage
loan that was reported as delinquent or with
a derogatory notation (other than "discharged
in bankruptcy," "included in bankruptcy," or
similar description) and without information
sufficient to establish that it was, in fact,
excluded from the bankruptcy discharge; and/
or
A Pre-bankruptcy Revolving Account that was
reported as delinquent or with a derogatory
notation (other than "discharged in bankruptcy," "included in bankruptcy" or similar
description) and without information sufficient to establish that it was, in fact, excluded
from the bankruptcy discharge; and/or
A Pre-bankruptcy Collection Account that
remained in collection after the bankruptcy
date.
The Court dismisses with prejudice all Released
Claims belonging to the Class Representatives and
Class members who did not timely and validly request
exclusion from the Settlement Class.
Upon the Effective Date, Plaintiffs and Class
members who did not timely and validly request

App.59a

exclusion from the Settlement Class, their respective
spouses, heirs, executors, administrators, representatives, agents, attorneys, partners, successors, predecessors, and assigns and all those acting or purporting
to act on their behalf acknowledge full satisfaction
of, and shall be conclusively deemed to have fully,
finally and forever settled, released, and discharged (i)
Equifax and its present, former and future officers,
directors, partners, employees, agents, attorneys, servants, heirs, administrators, executors, members, member entities, shareholders, predecessors, successors,
affiliates (including, without limitation, CSC Credit
Services, Inc.), subsidiaries, parents, representatives,
trustees, principals, insurers, investors, vendors and
assigns, individually, jointly and severally; (ii) Experian and its present, former and future officers,
directors, partners, employees, agents, attorneys,
servants, heirs, administrators, executors, members,
member entities, shareholders, predecessors, successors, affiliates, subsidiaries, parents, representatives,
trustees, principals, insurers, investors, vendors and
assigns, individually, jointly and severally; and (iii)
TransUnion and its present, former and future officers,
directors, partners, employees, agents, attorneys, servants, heirs, administrators, executors, members, member entities, shareholders, predecessors, successors,
affiliates, subsidiaries, parents, representatives, trustees, principals, insurers, investors, vendors and assigns,
individually, jointly and severally of and from any
and all duties, obligations, demands, claims, actions,
causes of action, suits, damages, rights or liabilities
of any nature and description whatsoever, whether
arising under local, state or federal law, whether by
Constitution, statute (including, but not limited to,
the FCRA and FCRA State Equivalents), tort, contract,

App.60a

common law or equity or otherwise, whether known
or unknown, concealed or hidden, suspected or unsuspected, anticipated or unanticipated, asserted or unasserted, foreseen or unforeseen, actual or contingent,
liquidated or unliquidated, fixed or contingent, that
have been or could have been asserted in the Litigation based upon the Defendants' furnishing of consumer reports during the Class period based upon
the fact or allegation that they contained false or
misleading reporting of debts, accounts, judgments,
or public records, or other obligations, that had been
discharged in bankruptcy or their alleged failure to
have properly reinvestigated such inaccuracies, by
Plaintiffs or the 23(b)(3) Settlement Class Members
or any of their respective heirs, spouses, executors,
administrators, partners, attorneys, predecessors, successors, assigns, agents and/or representatives, and/or
anyone acting or purporting to act on their behalf,
except for any such claims that were the subject of
pending litigation on November 7, 2016, against an
unaffiliated vendor of any of the Defendants. Released
Claims include, but are not limited to, all claimed or
unclaimed compensatory damages, damages for emotional distress, actual damages, statutory damages,
consequential damages, incidental damages, treble
damages, punitive and exemplary damages, as well
as all claims for equitable, declaratory or injunctive
relief under any federal or state statute or common
law or other theory that was alleged or could have
been alleged based on the facts forming the basis for
the Litigation, including but not limited to any and
all claims under deceptive or unfair practices statutes,
or any other statute, regulation or judicial interpretation. Released Claims further include interest, costs
and fees arising out of any of the claims asserted or

App.61a

that could have been asserted in the Litigation.
Notwithstanding the foregoing, the Parties shall retail
their respective rights and obligations under the
Settlement Agreement.
Class members were afforded a reasonable
opportunity to request exclusion from the Settlement
Class. Only 183 timely and valid requests for exclusion
were received by the Settlement Administrator, and
they are added to the 1,663 opt-out requests submitted
in conjunction with the 2009 Proposed Settlement.
The persons who timely requested exclusion from the
Settlement Class are listed in Exhibit A hereto. The
Court hereby excludes the persons listed in Exhibit A,
as well as the 1,663 prior opt-outs, from the Settlement Class, and they are not bound by the final judgment in this consolidated case.
If the Effective Date does not occur, this Judgment shall be void as provided in the Settlement
Agreement.
The Rule 23(b)(3) Settlement Class members
were given an opportunity to object to the Settlement.
Only three objections were received by the Court,
from Christine Swartz, Marcia and Jimmy Green,
and Robert Radcliffe, Chester Carter, Maria Falcon,
Clifton Seale III, and Arnold E. Lovell. The Court
finds that Christine Swartz and Marcia and Jimmy
Green have not complied with the requirements in the
Court-approved Notice for filing objections, and their
objections are therefore stricken. Furthermore, the
Court overrules all of the objections. All Settlement
Class members who failed to file a timely and valid
objection to the Settlement are deemed to have
waived any objections and are bound by the terms of
the Settlement Agreement.

App.62a

This Order constitutes a judgment for purposes
of Federal Rule of Civil Procedure 58. Without affecting
the finality of this Final Order and Judgment in any
way, the Court reserves continuing and exclusive
jurisdiction over the parties, including all members
of the Settlement Class, and the execution, consummation, administration, and enforcement of the terms
of the Settlement Agreement..
Within five (5) days of the Effective Date, each
of the three Defendants, Equifax Information Services,
LLC, Experian Information Solutions, Inc., and Trans
Union LLC, shall cause to be deposited into the
Registry Account an amount equal to three hundred
thirty-three thousand and three hundred thirty-three
dollars and thirty-three cents ($333,333.33).
Within ten (10) days of the Effective Date, the
Parties shall jointly petition the Court to release
funds from the Settlement Fund in the Registry of
the Court to the Settlement Administrator in trust
for distribution to the Claimants.
Within ten (10) days of the Effective Date,
the Parties shall jointly petition the Court to release
funds from the Settlement Fund in the Registry of
the Court to the Settlement Administrator for payment
of the service awards granted herein.
Within ten (10) days of the Effective Date,
the Parties shall jointly petition the Court to release
funds from the Settlement Fund in the Registry of
the Court to the Settlement Administrator for payment
of the Attorneys' Fees and Expenses granted in this
Order. The Settlement Administrator shall then deposit
the awarded attorneys' fees and expenses into the
trust account of Caddell & Chapman, as Trustee for

App.63a

Rule 23(b)(3) Settlement Class Counsel, to be distributed in accordance with this Court's Orders and any
applicable agreements among counsel.
Within fifteen (15) days of the Effective Date,
each of the three Defendants, Equifax Information
Services, LLC, Experian Information Solutions, Inc.,
and Trans Union LLC, shall deposit $2 million for
payment of Injunctive Relief Fees and expenses into
the trust account of Caddell & Chapman, as Trustee
for Rule 23(b)(2) Settlement Class Counsel, to be
distributed in accordance with this Court's Orders
and any applicable agreements among counsel.
The parties to the Settlement Agreement are
directed to consummate the Settlement in accordance
with the Settlement Agreement according to its terms.
Without further Court Order, the parties may agree
to reasonable extensions of time to carry out any of
the provisions of the Settlement Agreement.
IT IS SO ORDERED.

BY: /s/ Hon. David 0. Carter
U.S. District Judge

DATED: April 6, 2018

App.64a
ORDER OF THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT
DENYING PETITION FOR REHEARING
(FEBRUARY 7, 2020)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ROBERT RADCLIFFE; CHESTER CARTER;
MARIA FALCON; CLIFTON C. SEALE III;
ARNOLD LOVELL, JR.,
Plaintiffs-Appellants,
v.
JOSE HERNANDEZ; ROBERT RANDALL;
BERTRAM ROBINSON; KATHRYN PIKE;
LEWIS MANN,
Plaintiffs-Appellees,
v.
EXPERIAN INFORMATION SOLUTIONS, INC.;
EQUIFAX INFORMATION SERVICES, LLC;
TRANS UNION LLC,
Defendants-Appellees.
No. 18-55606
D.C. No. 8:05-cv-01070-DOC-MLG

App.65a

Before: FARRIS and McKEOWN, Circuit Judges,
and KENDALL,* District Judge.
The panel has voted to deny Appellants' petition
for panel rehearing. Judges McKeown and Kendall
vote to deny the petition for rehearing en banc, and
Judge Farris so recommends.
The full court has been advised of the petition
for rehearing en banc and no judge has requested a
vote on whether to rehear the matter en banc. Fed.
R. App. P. 35.
The petition for panel rehearing and the petition
for rehearing en banc are DENIED.

* The Honorable Virginia M. Kendall, United States District Judge
for the Northern District of Illinois, sitting by designation.

App.66a

FEDERAL RULES OF CIVIL PROCEDURE 23(a), (g)
FEDERAL RULES OF CIVIL PROCEDURE RULE 23—
CLASS ACTIONS
(a) Prerequisites
One or more members of a class may sue or be
sued as representative parties on behalf of all
members only if:
the class is so numerous that joinder of
all members is impracticable;
there are questions of law or fact common
to the class;
the claims or defenses of the representative parties are typical of the claims or
defenses of the class; and
the representative parties will fairly and
adequately protect the interests of the
class.

]
(g) Class Counsel
(1) Appointing Class Counsel
Unless a statute provides otherwise, a court that
certifies a class must appoint class counsel. In
appointing class counsel, the court:
(A) must consider:
(i)

the work counsel has done in identifying
or investigating potential claims in the
action;

App.67a

counsel's experience in handling class
actions, other complex litigation, and the
types of claims asserted in the action;
counsel's knowledge of the applicable
law; and
the resources that counsel will commit
to representing the class;
may consider any other matter pertinent to
counsel's ability to fairly and adequately
represent the interests of the class;
may order potential class counsel to provide
information on any subject pertinent to the
appointment and to propose terms for attorney's fees and nontaxable costs;
may include in the appointing order provisions
about the award of attorney's fees or nontaxable costs under Rule 23(h); and
may make further orders in connection with
the appointment.
(2) Standard for Appointing Class Counsel
When one applicant seeks appointment as class
counsel, the court may appoint that applicant
only if the applicant is adequate under Rule 23
(g)(1) and (4). If more than one adequate applicant
seeks appointment, the court must appoint the
applicant best able to represent the interests of
the class.

App.68a

Interim Counsel
The court may designate interim counsel to act
on behalf of a putative class before determining
whether to certify the action as a class action.
Duty of Class Counsel
Class counsel must fairly and adequately represent
the interests of the class.

.•

BLANK PAGE

SUPREME COURT
PRESS

